<html>
<title> - NOMINATION HEARING FOR MEMBERS OF THE FEDERAL ELECTION COMMISSION</title>
<body><pre>[Senate Hearing 116-383]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-383
 
   NOMINATION HEARING FOR MEMBERS OF THE FEDERAL ELECTION COMMISSION

=======================================================================

                                HEARING

                               before the

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2020

                               __________

    Printed for the use of the Committee on Rules and Administration
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
 


                  Available on http://www.govinfo.gov
                  
                  
                  
                  
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
 42-427 PDF           WASHINGTON : 2021                  
                  
                  
                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director
                
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...     3
Shana M. Broussard of Louisiana, to be a Member of the Federal 
  Election Commission............................................     5
Sean J. Cooksey of Missouri, to be a Member of the Federal 
  Election Commission............................................     7
Allen Dickerson of the District of Columbia, to be a Member of 
  the Federal Election Commission................................     7

                        Prepared Statements of:

Hon. Ted Cruz, a U.S. Senator from the State of Texas............    25
Shana M. Broussard of Louisiana, to be a Member of the Federal 
  Election Commission............................................    26
Sean J. Cooksey of Missouri, to be a Member of the Federal 
  Election Commission............................................    28
Allen Dickerson of the District of Columbia, to be a Member of 
  the Federal Election Commission................................    29

                  Questions Submitted for the Record:

Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Shana M. Broussard of Louisiana, to be a Member of the Federal 
  Election Commission............................................    31
Hon. Ted Cruz, a U.S. Senator from the State of Texas to Shana M. 
  Broussard of Louisiana, to be a Member of the Federal Election 
  Commission.....................................................    33
Hon. Mark Warner, a U.S. Senator from the State of Virginia to 
  Shana M. Broussard of Louisiana, to be a Member of the Federal 
  Election Commission............................................    33
Hon. Cortez Masto, a U.S. Senator from the State of Nevada to 
  Shana M. Broussard of Louisiana, to be a Member of the Federal 
  Election Commission............................................    36
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Sean J. Cooksey of Missouri, to be a Member of the Federal 
  Election Commission............................................    39
Hon. Mark Warner, a U.S. Senator from the State of Virginia to 
  Sean J. Cooksey of Missouri, to be a Member of the Federal 
  Election Commission............................................    41
Hon. Cortez Masto, a U.S. Senator from the State of Nevada to 
  Sean J. Cooksey of Missouri, to be a Member of the Federal 
  Election Commission............................................    45
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota to 
  Allen Dickerson of the District of Columbia, to be a Member of 
  the Federal Election Commission................................    47
Hon. Mark Warner, a U.S. Senator from the State of Virginia to 
  Allen Dickerson of the District of Columbia, to be a Member of 
  the Federal Election Commission................................    52
Hon. Cortez Masto, a U.S. Senator from the State of Nevada to 
  Allen Dickerson of the District of Columbia, to be a Member of 
  the Federal Election Commission................................    58


   NOMINATION HEARING FOR MEMBERS OF THE FEDERAL ELECTION COMMISSION

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2020

                       United States Senate
              Committee on Rules and Administration
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01, in Room 
301, Russell Senate Office Building, Hon. Roy Blunt, Chairman 
of the Committee, presiding.
    Present: Senators Blunt, Klobuchar, Cruz, Capito, Wicker, 
Fischer, Hyde-Smith, Udall, Warner, Leahy, King, and Cortez 
Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. Good morning to--I want to thank my 
colleagues for joining us today. I would like to welcome our 
nominees to today's hearing. Shana Broussard, Sean Cooksey, and 
Alan Dickerson are the President's nominees to be members of 
the Federal Election Commission. As our witnesses are joining 
us remotely, I also understand that their families and friends 
are watching today, and so I welcome them as well.
    This is a big responsibility. It is a significant 
Presidential nomination and significant to the work of this 
committee, and I know you are proud of your family member as 
they have moved forward to this opportunity. Let me say a 
little bit about a couple of the nominees and then I am going 
to turn to another committee member, Senator Cruz, to talk 
about the third nominee. Alan Dickerson is the nominee to be a 
member of the Federal Election Commission for a term expiring 
on April 30, 2025. Mr. Dickerson has been practicing law for 20 
years, primarily in the areas of First Amendment and campaign 
finance.
    Since 2011, Mr. Dickerson has been the Legal Director of 
the Institute for Free Speech, a nonprofit organization that 
litigates First Amendment and campaign finance cases in state 
and federal courts. He is also a Captain in the Judge Advocate 
General Corps for the United States Army Reserve. He and his 
wife Rachel have one child, Aurelia, and are expecting a second 
child.
    Shana Broussard is the nominee to be a member of the 
Federal Election Commission for a term expiring on April 30, 
2023. Ms. Broussard was born at Vandenberg Air Force Base in 
Santa Barbara, California, but she truly hails from Louisiana, 
as was clear with my visit with her this week. She graduated 
from Dillard University in 1991 and Southern University Law 
School in 1995. She has had a 25 year legal career, the past 12 
of which she has worked at the FEC, first as an enforcement 
attorney in the Office of General Counsel until 2015, and then 
as Executive Assistant for Commissioner Walther since 2015.
    Ms. Broussard also worked at the Internal Revenue Service 
and in Louisiana as a prosecutor for the Attorney General and 
New Orleans Parish District Attorney and as a Clerk of the 2nd 
Circuit Court of Appeals. I would like to recognize Senator 
Cruz to introduce our third nominee, Mr. Cooksey.
    Senator Cruz. Thank you, Mr. Chairman. I am very proud 
today to introduce Sean Cooksey as a nominee to the Federal 
Election Committee. As the Chairman knows, he is from Missouri 
and he currently works for the Junior Senator from Missouri. 
But I am going to go ahead and claim him anyway as an honorary 
Texan.
    Not only did he clerk for one of the most respected 
Appellate Judges in the country, Jerry Smith, in my hometown of 
Houston, but he also worked on my staff as Deputy Chief 
Counsel, serving the 29 million people of the great State of 
Texas. Sean's impeccable educational credentials include 
graduating summa cum laude from Truman State University and 
receiving his J.D. from the University of Chicago Law School, 
where he graduated with high honors and Order of the Coif. From 
there, as I mentioned, he clerked for Judge Smith on the U.S. 
Court of Appeals for the 5th Circuit before joining one of the 
Nation's most respected law firms in D.C. as a litigation 
associate focusing on appeals and constitutional law.
    Most notably, as a young associate he worked on a Supreme 
Court matter in which his client ultimately prevailed eight to 
one. Then in 2018, Sean joined my staff as Deputy Chief 
Counsel, working on a wide array of important and complex 
issues including election law. He did a fantastic job, and we 
were sad but also excited for him when he left in 2019 to serve 
as Senator Hawley's Chief Counsel when Senator Hawley came and 
joined us on the Judiciary Committee.
    He still serves in that role doing an excellent job for 
Senator Hawley, and he advises Senator Hawley on constitutional 
law and judicial nominations, on election law, federal criminal 
law, ethics compliance, and a whole lot more. My experience 
with Sean has demonstrated to me that he is not only an 
exceptionally talented lawyer, but he is also someone deeply 
committed to the rule of law.
    He will be prepared to hit the ground running on day one as 
a Commissioner, and I have complete confidence that he will 
faithfully apply the law fairly and neutrally. I would also 
note that Sean and his wife Ellyn are expecting a baby this 
winter. These are propitious times in the Cooksey household, 
and I am proud to introduce my friend Sean.
    Chairman Blunt. There you go. Thanks, Senator Cruz. Three 
nominees, two babies on the way in two of these families. 
Earlier this year, our committee gathered to confirm a nominee 
to restore a quorum at the FEC. Since that confirmation of 
Commissioner Trey Trainor, the FEC once again lost a quorum 
with the resignation of Commissioner Hunter in July of this 
year.
    The confirmation of these three nominees before the 
committee today will restore a quorum at the FEC. But more 
importantly, the confirmation of these three nominees would 
restore a full slate of Commissioners to the FEC for the first 
time since February 2017. While the FEC is authorized to have 
six Commissioners, it currently has only three. Only one 
Commissioner, Commissioner Trainor, serves on an unexpired 
term. The other two Commissioners serve on holdover status. 
Their terms have been expired years ago, Commissioner Walther's 
in 2009 and Commissioner Weintraub's in 2007.
    While a quorum, a simple quorum, allows the FEC to hold 
hearings, make new rules, advise through advisory opinions, 
conduct investigations or approve enforcement actions, a full 
slate of Commissioners means that the FEC is not hobbled and is 
able to continue its work when a single Commissioner departs 
the agency. For some time now, when one Commissioner left for 
whatever reason, the Commission was not able to function. 
Hopefully, our action through these hearings and later will, 
for the first time again, restore six members to the 
Commission. The Commission plays a vital role for federal 
campaign committees.
    As I mentioned in our last hearing for the last nominee, I 
was former Secretary of State. I worked with the Commission on 
a regular basis then, since I have been a candidate in nine 
federal elections, which is probably about average for this 
committee. The members of this committee and the Senate should 
know the importance of a fully functioning FEC to federal 
candidates who need to avail themselves of the FEC's guidelines 
and advisory opinions.
    We also know all the important stability that the agency 
brings to the community that is regulated by the FEC. I look 
forward to hearing testimony from our nominees today. I also, 
again, let me say look forward to having a full slate of 
Commissioners at the FEC and hope we are able to get that done 
before the Congress adjourns this year.
    I would like to turn to my good friend, Senator Klobuchar, 
for her opening statement.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A UNITED STATES 
              SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Well, thank you very much, Mr. Chairman. 
Today, as you note, we are here to consider three nominees to 
the Federal Election Commission, which is, of course, the 
independent agency responsible for enforcing our federal 
campaign finance laws. First, I want to bring up the fact that 
given this committee has oversight over federal elections, it 
is important to acknowledge that nearly 160 million Americans 
voted this year, more people than ever before in United States 
history.
    Even though we are in the midst of a global pandemic, 
elections were administered successfully due to the hard work 
of state and local officials, both Democratic and Republican 
and independent state and local officials. Last week, officials 
in charge of election security working in the Trump 
Administration, including DHS people, Secretaries of State, and 
the Election Assistance Commission put out a joint statement 
that said the November 3rd election was the most secure in 
American history. Again, this is a testament to local 
officials, also to Chris Krebs who unfortunately was fired 
yesterday by the President via tweet. But I know that he has a 
respect, as I saw the statements from many Republican Senators 
today, of many in the United States Senate. Regardless of that 
unfortunate incident, I would say we all owe a debt of 
gratitude to all these hardworking election officials.
    Turning to the topic of today's hearing, with the 
exception, as the chairman noted of a brief period this summer, 
the FEC has been without a quorum for nearly 15 months. Over 
that time, I have repeatedly urged my colleagues to work with 
us to get the agency up and running. FEC nominees are typically 
confirmed in bipartisan pairs. This spring, the majority chose 
to push forward a controversial nominee without a Democratic 
nominee. This approach opened the door to the FEC losing its 
quorum just 46 days after it was restored. This persistent lack 
of quorum is a major problem and we know why. We must have an 
FEC that can enforce the law. The truth is, we need it more 
than ever. The Center for Responsive Politics estimates 
spending for the 2020 election cycle was approximately, ready 
for this, $14 billion. That is more than double the 2016 
election cycle, and it includes $2.6 billion in outside 
spending by super PACs, political parties, and dark money 
groups.
    In order for our democracy to work for the people, we need 
strong rules for campaign spending and we need a strong agency 
to enforce the rules. Congress created the FEC for that very 
purpose after the Watergate scandal to help restore the 
public's faith in the electoral policy. Since taking over as 
ranking member of this committee, I have worked with several of 
my colleagues to propose solutions to try to get the agency 
back on track, including a bill. At the very least, we should 
work together to select strong, experienced nominees from both 
parties who understand that their job is to enforce the law and 
protect our election system. I am concerned about the views of 
some of these nominees. I will briefly go through them. I did 
have a good discussion with all three of them. I appreciate 
that. I had the opportunity to discuss views such as social 
media political ads and the need for the FEC to move forward 
with rules regarding those ads, which account for billions of 
dollars in political spending.
    First, Mr. Dickerson has extensive experience in campaign 
finance. Unfortunately, he has been focusing on less, not more, 
transparency for political spending. He's opposed restrictions 
on individual donations, attempts to bring transparency to 
corporate and dark money spending after the Citizens United 
decision, and efforts to stop foreign money from influencing 
our elections. If we are going to break out of the gridlock 
that has paralyzed the FEC, we need Commissioners that can work 
together to find areas where they agree. It is my sincere hope 
that Mr. Dickerson's views on the role of money and 
transparency in politics do not make it harder to find 
consensus with the other Commissioners.
    Mr. Cooksey, already discussed by Senator Cruz, he does not 
have an extensive record on campaign finance or election 
issues, and his testimony for this hearing doesn't provide 
enough information regarding his qualifications, his view of 
the Commission, and how he plans his approach to his role if 
confirmed. Again, I appreciated the fact that he talked to me 
and we discussed some really important issues, and I 
appreciated the words that we heard that they were willing to 
work on issues like the political ads and the fact that we 
don't have any set rules in place for social media ads. 
Finally, we have Ms. Broussard and I so appreciated, Mr. 
Chairman, your introduction of her. I have been urging the 
White House to nominate her for more than a year. Our hope was 
that she--months ago, she would have been confirmed to fill the 
vacant seat. I won't go into all that, but let's talk about her 
because she is great.
    Ms. Broussard has served as a lawyer at the FEC for 12 
years, both as a Staff Attorney and as a Commissioner Counsel 
to a Commissioner. She is immensely qualified and well 
respected by her peers. Her experience as an FEC staffer would 
bring an important perspective to the Commission. She would 
also be the first person of color to serve on the FEC. I hope 
my colleagues that are here remotely listen to that. It is kind 
of incredible, but there has not been anyone in the past, and I 
can't think of anyone better to be the first. The pandemic has 
shown us how resilient our democracy can be when dedicated 
professionals work to respond to a crisis.
    As I said, state and local election officials rose to the 
challenge. Now it is time for the FEC to rise to the challenge 
of the issues ahead of them. Of course, individual cases that 
come before them, but then the key is modernizing some of our 
rules and the like to make them more responsive to the 
challenges of our elections of our time. Thank you very much, 
Mr. Chairman.
    Chairman Blunt. Thank you, Senator Klobuchar. We are going 
to go to our testimony now from the witnesses. We, of course, 
have your written statements in the record, but glad for you to 
use up to 5 minutes in whatever way you would like to talk 
about your background, the FEC, and what this committee should 
be considering. Let's first go to Ms. Broussard.

OPENING STATEMENT OF SHANA M. BROUSSARD, OF LOUISIANA, TO BE A 
           MEMBER OF THE FEDERAL ELECTION COMMISSION

    Ms. Broussard. Thank you. Good morning. Thank you, Chairman 
Blunt, Ranking Member Klobuchar, and members of the committee. 
It is an honor to appear before you today as a nominee for the 
Federal Election Commission. I would like to first take the 
opportunity to thank my brothers, Juan and Pierre Broussard. I 
could ask for no greater cheering team than my brothers.
    I would like to take a moment to say hello to my nephew 
Tristen in Albuquerque, New Mexico. Tristen informed me this 
weekend that he is working on an essay for his social studies 
class, for a person that he admires. He told me it was a tie 
between myself and my brother--his father, Pierre Broussard, 
but this process has bumped me up in the rankings, so I want to 
say hello to Tristen. Like my brothers, I would also like to 
thank my friends and my Sorors, the women of Delta Sigma Theta 
Sorority Incorporated, for their support and encouragement 
throughout this process.
    Under traditional times, I would have loved to have seen a 
hearing room filled with women wearing red and white, but we 
are not in traditional times. Still, their support has been 
unwavering, and I must take a moment to thank the most 
instrumental people in my life, my parents, James and Gainell 
Broussard, of Gibson, Louisiana. My father retired from the 
United States Air Force after 25 years of service to our 
country. My mother is a retired middle school teacher, having 
taught in the very same school that she attended as a child. 
Together, they instilled within me a pride in public service 
and a commitment to community that has guided the course of my 
professional career, first as an Assistant District Attorney, 
as a Deputy Disciplinary Counsel, and now with the FEC. For 
more than a decade, I have worked every day to advance the 
FEC's mission.
    Although Congress created the FEC in 1975, the agency's 
mission to protect the integrity of the federal campaign 
finance process has never been more urgent. Now, more than 
ever, it is time to work toward repairing the American people's 
trust in this agency. Now it has never been more urgent for the 
Commission to have individuals fill these seats who are 
measured, impartial, and focused on building consensus. As an 
FEC attorney, I carefully considered each enforcement matter 
before me, making sure that my recommended dispositions were 
supported by facts and the law. My recommendations were fair 
yet firm, and were always made with an aim toward promoting 
transparency.
    As Counsel for Commissioner Steven Walther over the last 6 
years, I have worked with Commissioner offices to build 
consensus on everything from resolving enforcement matters and 
management issues to the Commission's budget. I am grateful to 
Commissioner Walther for this opportunity. He is an example of 
how to reach across the aisle to get work done at the 
Commission. I also take this opportunity to thank Commissioner 
Ellen Weintraub. She too has been supportive, and her 
dedication to the agency and its mission is unsurpassed.
    When I started working for the American people 12 years 
ago, I never envisioned that I would be testifying today before 
this committee on my qualifications and an interest in serving 
as the Commissioner. The opportunity to lead the Commission 
rarely comes to those already working within the Commission, 
but it is this very experience, working day to day, side by 
side with the FEC staff in support of the agency's mission that 
makes me uniquely prepared to serve the American people.
    If confirmed, I will approach my work as a Commissioner as 
I have done throughout my career in public service, with 
diligence, impartiality, and with integrity. But equally 
important, I will serve with the utmost appreciation and 
respect for the hard work of the staff. Having served with 
them, I bring a new perspective to agency leadership. 
Furthermore, if confirmed, I would be the first African-
American to serve on the Commission. This historic fact cannot 
be ignored. 45 years after the establishment of this agency, it 
is time that the agency designed to promote the integrity of 
our elections for the American people look a little more like 
the American people.
    Mr. Chairman, ranking member Klobuchar, and members of the 
committee, thank you for the opportunity to appear today and I 
welcome any questions that you may have. Thank you.
    [The prepared Statement of Ms. Broussard was submitted for 
the record.]
    Chairman Blunt. Thank you, Ms. Broussard. We are glad to 
have you with us today. Let's go to Mr. Cooksey next. Sean 
Cooksey.

  OPENING STATEMENT OF SEAN J. COOKSEY, OF MISSOURI, TO BE A 
           MEMBER OF THE FEDERAL ELECTION COMMISSION

    Mr. Cooksey. Good morning, Chairman Blunt, Ranking Member 
Klobuchar, and members of the committee. It is an honor to 
appear before you. I would like to thank both the chairman and 
the ranking member for convening this hearing to consider my 
nomination to the Federal Election Commission, and I would like 
to thank President Trump for nominating me. I would also be 
remiss if I did not thank the committee staff and the White 
House staff who have helped with my nomination.
    I do not have an opening statement, but I would like to 
acknowledge some important people. First and foremost is my 
wife, Ellyn. She is my hero and an unwavering source of love 
and support. I thank my parents, Ken and Susan Cooksey, for all 
of their patient love throughout my life. I am fortunate to be 
their son. I am also grateful to my two brothers, my 
grandmother, and the many friends and colleagues who have 
encouraged me along the way.
    Finally, I am indebted to three mentors. The first is Judge 
Jerry Smith of the United States Court of Appeals for the 5th 
Circuit, for whom I was lucky enough to clerk after graduating 
from law school. The second is Senator Ted Cruz, who gave me my 
first job in the United States Senate and has been a role model 
for me ever since, and I thank Senator Cruz for his very warm 
introduction. Last, I would like to thank my current boss, 
Senator Josh Hawley, who entrusted me to work for the people of 
Missouri as his General Counsel. It has been the honor of a 
lifetime to serve on his staff.
    With that, Chairman Blunt and ranking member Klobuchar, 
thank you again for holding this hearing, and I look forward to 
your questions.
    [The prepared Statement of Mr. Cooksey was submitted for 
the record.]
    Chairman Blunt. Thank you, Mr. Cooksey. Let's go to Allen 
Dickerson for any comments you would like to make, Mr. 
Dickerson.

   OPENING STATEMENT OF ALLEN DICKERSON, OF THE DISTRICT OF 
  COLUMBIA, TO BE A MEMBER OF THE FEDERAL ELECTION COMMISSION

    Mr. Dickerson. Well, thank you and good morning, Chairman 
Blunt, Ranking Member Klobuchar, members of the committee. It 
is a privilege to appear before you this morning to discuss my 
nomination. I am grateful to the President for his confidence 
and to this committee for providing me with this opportunity.
    I am sorry we are meeting by video conference. It is a wise 
and responsible decision, but something is lost when an event 
of this gravity is held remotely. For me personally, that 
includes the ability of my wife Rachel to be present in person. 
I understand that she has taken a break from her work as a 
child psychologist to view a remote feed, but the fact that she 
is not physically present does nothing to diminish my great 
appreciation and affection for her as a woman, wife, and 
mother. Nor does it lessen the many sacrifices that she has 
made to support my career and to allow me this opportunity for 
public service.
    While our daughter is too young to follow today's 
discussion, I do hope that in the fullness of time she will be 
proud of her father's career in the law and his service to his 
country. It has been a long road for me from California's 
Mojave Desert to a hearing before the United States Senate. I 
am grateful to my parents, Terry and Gail, and to my sister 
Iris, for setting me on the path. Finally, my thanks go to my 
colleagues at the Institute for Free Speech for nearly a decade 
of warm collegiality and partnership. I have spent the last 
several years bouncing between two very different worlds.
    As Legal Director of the Institute for Free Speech, I 
represent clients in court, and advocate in public for a robust 
view of the First Amendment. In that capacity, I have 
represented clients from across the political spectrum, 
including Republican elected officials and donors, the 
Libertarian National Committee, the Progressive San Francisco 
Ballot Committee, and the Coalition for Secular Government. I 
have authored scores of briefs joined by groups as diverse as 
Color of Change and the Tea Party Patriots, the ACLU, and the 
Cato Institute. At the same time as an officer and lawyer in 
the Army Reserve, I advise soldiers in the very different 
context of uniformed service. There, the rights of expression 
and association take a different form, limited by the needs of 
the service and the requirements of good order, discipline, and 
fidelity to the chain of command.
    From both roles, I have come away with a great respect for 
the diversity, character, and wisdom of the American people, 
and I have developed a deep trust in the vibrancy and 
resilience of American institutions. Congress created the FEC 
to protect those institutions. In the aftermath of Watergate, 
as Ranking Member Klobuchar noted, it established the 
Commission to prevent corruption and to enlighten the American 
voters as they choose our representatives. It is an important 
role and it is a challenging one, because all of us, members of 
the Bar, of Congress, courts, and the Commission have worked 
hard over many years to find the delicate balance between a 
legitimate anti-corruption and disclosure interests of the 
Government on one hand, and the First Amendment rights of the 
citizenry on the other.
    If the Senate chooses to confirm me, I will work every day 
to provide the American people with an independent Commission 
that faithfully administers the law as Congress wrote it and 
the courts have interpreted. Just as when I don or doff the 
military uniform, I recognize that I have been asked to apply 
my experience to a new role, and I am prepared to work hard in 
the service of this agency and its public role.
    If confirmed, I look forward to working with my colleagues, 
both here and those already at the Commission, and with the 
dedicated civil servants at the FEC to explain a complex body 
of law, clarify it where appropriate, and enforce it in a fair 
and nonpartizan manner that Congress envisioned.
    Thank you again for the opportunity to be here, and I look 
forward to your questions.
    [The prepared Statement of Mr. Dickerson was submitted for 
the record.]
    Chairman Blunt. Well, thank you, Mr. Dickerson, and thanks 
to all three of you. We do have the votes at 11 a.m. I think I 
am going to ask my questions last to be sure everybody has a 
chance to get their questions asked. I am going to give the 
first set of questions that I would normally ask to Mr. Cruz.
    Senator Cruz. Thank you, Mr. Chairman. Congratulations to 
all three of the nominees. Let me start with just a general 
question. What, in your view, is the responsibility of the FEC 
and what would your responsibility be as Commissioners?
    Mr. Cooksey. Senator Cruz, I am happy to take that question 
first. The responsibility of the FEC is to fairly and 
efficiently administer and enforce the campaign finance laws as 
Congress has enacted them and consistent with the Constitution 
and the rulings of courts. My responsibility as a Federal 
Election Commissioner would be to do just that, enforce the law 
as I see directed by Congress, and to do so in an impartial and 
effective and fair manner.
    Mr. Dickerson. Senator, I would agree with that 
characterization and add to that the appropriate discharge of 
our oath in that regard is intended to and I hope will have the 
effect of increasing the American public's confidence in our 
election process.
    Ms. Broussard. Thank you, Senator. I also want to 
conclude--not conclude, but concur with my fellow nominees.
    Senator Cruz. Let me ask another question, in your 
judgment, what is the relationship between federal campaign 
finance law and the First Amendment to the Constitution?
    Mr. Dickerson. Senator--go ahead.
    Mr. Cooksey. Senator, the Constitution, of course, is the 
paramount law of the land. It always controls over any 
statutory law. As an FEC Commissioner, of course, I would be 
bound to uphold the First Amendment, first and foremost, but 
also to administer the statutes as far as Congress has passed 
them, consistent with that amendment and as interpreted by the 
courts.
    Mr. Dickerson. Senator, I agree that is absolutely correct. 
I would add that as a doctrinal matter, campaign finance law is 
an exception, albeit a well-established and long running 
exception, to the general prohibitions of the First Amendment. 
It is part of why the FEC's work is so important in explaining 
how all of this fits together for all involved in the political 
process.
    Chairman Blunt. Ms. Broussard, are you going to respond to 
that?
    Senator Klobuchar. I think she may be cutoff.
    Chairman Blunt. Maybe video is not working right now for 
her.
    Senator Klobuchar. Or the phone, so she will have to get 
back on.
    Chairman Blunt. Right.
    Senator Cruz. Alright, well, for Ms. Broussard, I would ask 
that she answer that question in writing then afterwards. 
Because sorry, we are having technical difficulties. Thank you, 
Mr. Chairman.
    Chairman Blunt. Senator Klobuchar.
    Senator Klobuchar. Actually might defer to someone else 
till she gets back on. Okay. If another Senator wants to go.
    Ms. Broussard. Hello?
    Senator Klobuchar. Okay. Are you on, Ms. Broussard?
    Ms. Broussard. Sorry, I apologize. I think that is the 
technology that we are working with today.
    Senator Klobuchar. Well, if it makes you feel any better, 
Ms. Broussard, at a judiciary hearing recently, Mr. Zuckerberg 
had trouble getting on, the head of Facebook. Don't worry about 
it. Oh, it was Commerce. The commerce----
    Chairman Blunt. Technical challenge.
    Senator Klobuchar. Yes, that was--that happened. Alright. I 
wanted to first ask you, Ms. Broussard, about the--we talked 
about this over the phone, as I did with the other two 
nominees, the weak disclaimer and disclosure rules on online 
political ads. We know in 2016 this was--there were actually 
ads paid for by Rubles. Fortunately, some of the companies have 
changed some of their policies, so that has gotten better. But 
I asked Mr. Zuckerberg about this just yesterday.
    We continue to have issues with ads and including ads that 
aren't looked at by human beings and then get through and are 
not true. I have this Honest Ads Act, which is bipartisan 
legislation with Senator Graham that would apply the same 
disclosure and disclaimer rules on political ads that we have 
for TV, radio, and print.
    Could you talk about your views on this? If you think the 
FEC could also take care of this. One thing is important to 
look at, it is not just candidate ads, it is also issue ads. 
Ms. Broussard.
    Ms. Broussard. Thank you. The Honest Ads Act would 
obviously increase or expand the definition of public 
communication to the online political spending. I see this as 
an opportunity to increase transparency ads with the Honest Ads 
Act, but also prevent the direct or indirect spending of 
foreign entities into our political discourse, which would 
provide a greater transparency to the American people.
    As it relates to the FEC, if Congress enacts this law, it 
would be, of course, the responsibility of the Commissioners to 
work together to craft regulations that would affect that. I 
think the greatest start would be look at the rulemaking or the 
Internet disclaimer rules that, excuse me, are currently before 
the Commission now and that is stalled as a result of the lack 
of quorum. That rulemaking impact had an expansion or inclusion 
of the definition of a public communication, but the Honest Ads 
Act would obviously take it into a broader perspective and work 
on a greater transparency.
    Senator Klobuchar. Right. The way I look at it, the 
Commission could do some of this by rule and then the law would 
be very helpful to get into place. Mr. Dickerson, last year in 
a speech, you argued that online political ads should not be 
regulated because the amount is such a small portion of 
political speech. I just want to make sure you know that as of 
2018, Facebook and Google collectively sold over 16 million 
political ads worth over $3.2 billion.
    I don't think I have the 2020 numbers on them, but what I 
do have is a number on broadcast ads, $2.5 billion in 2020, 
just to give you some comparison. If you look at over $3.2 
billion on just two platforms, that is only three, two in the 
last 3 years. Where are you on this still? I know we talked 
about this over the phone, but we are just simply, Senator 
Graham and I are trying to make sure that the rules applied are 
the same on both TV broadcast as they are when it comes to 
these social media platforms.
    Mr. Dickerson. I appreciate the question and thank you for 
the chance to comment on it. You know, the difficulty in this 
area is that there are two lines of Supreme Court precedents, 
as you know. There is one which says that there is a right of 
privacy, of association, and belief under the First Amendment. 
The other is that there is this need for transparency in 
certain types of political spending. That is a very difficult 
balance.
    As I have said publicly and in our call, Senator, you know, 
I do think that those sort of balancing questions are best left 
to the wisdom of the American people's elected representatives 
in Congress. I have been skeptical of the difficulties of 
bridging that gap in a way that would survive judicial review. 
But I made those comments in the role of an advocate in public, 
and I do not consider it the appropriate role of an FEC 
Commissioner to stand in the way of legislation.
    Senator Klobuchar. Okay, thank you. As you know what--it 
will before you if you get confirmed to this rulemaking. I hope 
you will remain open to it and we will take that same open 
view. My last questions, for years, the FEC has frequently 
deadlocked in votes about whether the agency staff should 
investigate potential violations. Many believe that these 
deadlocks have significantly impaired the agency's ability to 
investigate potential criminal activity, regardless of the 
candidate's party, and enforce the law.
    In order to start an investigation, four Commissioners must 
find that there is a reason to believe there has been a 
violation of the law. I would ask each of you, if there are 
reliable public reports about a potential violation of the law, 
would that be enough to vote to open an investigation? If you 
want to just go in the order you were introduced, that is fine. 
Mr. Cooksey first.
    Mr. Cooksey. Thank you for the question, Senator. I think 
the standard for finding reason to believe is obviously a vague 
legal standard. It is one that can't be particularly 
quantified. I would say that credible news reports could be 
part of the evidence for finding reason to believe. I don't 
know if I could say as a categorical rule they would always be 
relevant, but I would certainly keep an open mind to including 
those in finding a reason to believe.
    Senator Klobuchar. Well, if you need additional information 
beyond public reports, would you support reaching out to 
federal agencies to get additional information? As you know, 
there is a strong relationship between DOJ and the FEC.
    Mr. Cooksey. Yes, Senator, I think referrals from federal 
agencies are oftentimes a very credible source of potential 
investigations on the civil enforcement side of the FEC.
    Senator Klobuchar. Okay. Thank you. Mr. Dickerson, same two 
questions about----
    Mr. Dickerson. Yes, I would completely agree with Mr. 
Cooksey that the decision to find reason to believe is going to 
be case by case, but certainly reliable public reports of 
specific facts that raise--that would fall within the legal 
definition of a violation would be the sort of thing that would 
be strong evidence for finding reason to believe.
    Senator Klobuchar. You would be open to getting additional 
information beyond public reports by reaching out to federal 
agencies to get the information?
    Mr. Dickerson. As I understand it, Senator, other agencies 
and the FEC are required by statute to coordinate in that 
manner. I would urge that.
    Senator Klobuchar. Very good. Ms. Broussard, do you want to 
finish up here so I can turn over to our colleagues?
    Ms. Broussard. Everything that my co-nominees have said I 
agree with. If there is sufficient information available in the 
complaint, there is a reason to look further and I would 
support any recommendations that come before me if I am 
confirmed with such information.
    Senator Klobuchar. Thank you very much. Thank you to all of 
you.
    Chairman Blunt. Thank you, Senator Klobuchar. We will next 
go to Senator Capito followed by Senator Udall.
    Senator Capito. Thank you, Mr. Chairman. I thank the 
Ranking Member as well, and I say congratulations to the 
nominees on your nomination for this very important role. 
This--I have a question really for all nominees, because as we 
know, the FEC is unique among independent agencies in that 
neither party is allotted a majority of seats. When the 
Commission is fully constituting the backing of at least one 
Commissioner from each party, it is necessary to form a 
majority for many of the--for the enforcement actions. This 
adds to the Commission's legitimacy by ensuring that the FEC 
cannot impose politically motivated penalties.
    I think that is great, but it does present challenges. This 
structure, however, can make it difficult sometimes to resolve 
certain cases. I will start with Ms. Broussard. I'm sure she 
has seen this as a staffer on the committee. How would you work 
with other Commissioners, including those across the aisle, to 
resolve these matters in a fair and bipartisan way? I would be 
interested to know from your experience with the FEC, has this 
been an enormous problem, a small problem, or how does it 
present challenges?
    Ms. Broussard. Thank you for the question. I have, as you 
have already said, I have quite a few years of experience 
inside the agency, so I am familiar with this concept. First I 
would like to say, by restoring a full Commission, it creates a 
better opportunity for less of a deadlock. It creates the 
opportunity for consensus. It actually creates a better road 
map so that it requires that people truly communicate together 
for resolution so the American public can have full disclosure.
    I have a wealth of experience in working across the aisle 
because working for Commissioner Walther as one of his 
counsels, we had the opportunity to kind of obviously drill 
down into the weeds of cases and sometimes it might not work 
with one Commissioner. When you have six Commissioners, you 
have an opportunity to reach to another person and this builds 
consensus. This is truly having a full body at the Commission 
is the perfect opportunity for people to work together to find 
resolution.
    Senator Capito. Thank you. Mr. Dickerson?
    Mr. Dickerson. I completely agree. As a big believer, as a 
litigator in the adversarial process, I think the more voices 
and the better vetting you have on a legal question, the easier 
it is to find the nuance and find agreement. You know, I would 
note that much of what the Commission does, does not fall 
victim to deadlocked votes. That even in contested matters, 
votes in the Commission that do not reach majority are the 
exception and not the rule.
    I would hope that would continue to be the case because I 
think the ability of the Commission to give guidance to the 
regulatory community is helped by majority formal rulemaking in 
a way that divided votes don't necessarily provide the same 
level of certainty. I would hope to join my colleagues in 
reaching toward that goal.
    Senator Capito. Thank you. Mr. Cooksey?
    Mr. Cooksey. Thank you, Senator. I think you are right that 
the structure of the Commission is somewhat unique and an 
important feature to ensure the legitimacy of the Commission's 
action. I think deadlocks are a consequence of that, but I 
can't really improve on what my fellow nominees have said. I 
think often it is a mechanism that forces compromise, that 
forces consensus building. As someone who comes from a 
background in the legislative branch, I feel I am very used to 
that sort of dynamic and finding compromise and finding common 
ground. It is something that I would be committed to doing if I 
am lucky enough to be confirmed.
    Senator Capito. Thank you, Mr. Cooksey. Mr. Cooksey, I 
would--let me just continue with you. You have been counsel to 
Senators Hawley and Cruz before. You have advised them on 
constitutional law, judicial nominations, and election law. You 
just touched on it a little bit but I didn't know if you want 
to flesh out more how your legislative experience would help 
you in your role if you are confirmed as an FEC Commissioner.
    Mr. Cooksey. Thank you for the opportunity to discuss that, 
Senator. I think my role as a legislative staffer would bring a 
unique set of skills and a unique set of experiences to the 
Commission.
    I have a lot of experience working across the aisle, 
working with--in a small setting, with a small committee--a 
small number of committee members, and forging a lot of 
important compromises, you know, even if we can't agree 100 
percent of the time, finding those areas we can agree and 
moving forward. I think there is also a long and important 
history of people who have gone on to the FEC from a 
legislative background like mine and who have gone on to make 
very big contributions there.
    Senator Capito. Thank you. Ms. Broussard, just my last 
question to you is, and I don't know the answer to this, I am 
looking for information from you as an informed staffer. Are 
there a lot of backlog cases because the Commission has not 
been functioning properly?
    When you have these kinds of situation where you do have 
backlog, what has been the experience with the Commission to be 
able to prioritize certain areas, maybe it is timeliness, maybe 
it is, you know, amounts of dollars or the amount of people 
that affect--how do you prioritize when you have backlog? First 
my first question is, is there a large backlog? I don't know 
that. If there is, how would you prioritize?
    Ms. Broussard. Thank you. The quick answer to your 
question, Senator, is yes, there is a large backlog. This is 
public information available. The status of enforcement 
quarterly reports are published on the FEC's website, and it 
reflects that as of present or the close to the last quarter, 
there are 380 cases of the enforcement division, with 200 that 
are before the Commission awaiting vote.
    The obvious answer to your question is there is a backlog. 
But what I think the intent would be, if confirmed, would be to 
prioritize those enforcement cases based on the statute of 
limitations. Those matters that are within that 5 year 
limitation of the statute, we would be able to assess the 
severity of the allegations, prioritize those that have a 
greater harm to the public or higher prioritized matters, and 
compare that based upon the statute of limitations. I would 
suggest that we, working in consensus, put those cases first on 
the enforcement agendas.
    Senator Capito. Is that something, when you are seeking to 
prioritize, that you have to have agreement with the 
Commissioners on? I mean, do the Commissioners set the agenda? 
Is that how that is done?
    Ms. Broussard. Well, as it relates to the enforcement 
agenda, the executive sessions, it is usually set by the chair 
of the Commission, which, as you know, alternates each year. 
Whomever is the chair would determine the agenda. That would be 
a priority for the chair, which I believe if confirmed, I would 
prioritize those matters that are, if I were the chair of 
course, would prioritize those.
    Senator Capito. Alright. Thank you all very much. Thank you 
and good luck. Good answers. Thank you.
    Ms. Broussard. Thank you.
    Chairman Blunt. Thank you, Senator Capito. Senator Udall.
    Senator Udall. Thank you so much, Chairman Blunt and 
Ranking Member Capito. I have closely followed the work--
Ranking Member Klobuchar, excuse me--get to listen to you two. 
I have closely followed the work of the Federal Election 
Commission and have pushed for reform of the Commission during 
my time in the Senate. I believe that in its current state, the 
FEC has failed to uphold its mission and I am quoting here on 
the mission, ``to protect the integrity of the federal campaign 
finance process by providing transparency and fairly enforcing 
and administering federal campaign finance laws.'' Congress 
created the Federal Election Commission to fight political 
corruption after Watergate.
    But more recently, partisan gridlock left the agency 
powerless to enforce the few campaign finance laws remaining on 
the books. In 2016, we saw record spending of millions of 
dollars in undisclosed dark money, and we have seen the 
spending continue and on and on. Without a strong watchdog 
looking over their shoulders, super PACs and billionaire donors 
have had free rein to push the limits.
    I disagree profoundly with Citizens United and the Supreme 
Court's other campaign finance decisions, but we have to 
acknowledge that the court is not the only one at fault. The 
gridlocked FEC specifically, a block of GOP Commissioners who 
nearly always vote in lockstep, has also played a big role in 
undermining our campaign finance laws. For the last decade, GOP 
Commissioners have blocked every attempt to close loopholes in 
FEC regulations that allow dark money groups to flourish.
    The FEC has failed to compel groups to spend virtually all 
of their money on political advocacy to register as PACs, which 
would require them to disclose their donors. After 2018, we now 
know that there were efforts to secretly funnel foreign 
campaign money to candidates, deliberately violating our 
campaign finance laws to interfere in the outcome of those 
elections. I believe that a decisive FEC that can judiciously 
enforce campaign finance violations is crucial to maintaining 
the legitimacy of our elections and our democracy.
    Traditionally, FEC nominees have moved in bipartisan pairs. 
But what troubles me about today's set of nominations is the 
posture. Republicans broke with a long held Senate tradition 
when they refused to move a Democratic nominee with 
Commissioner Trainor's nomination and are now advancing 
Republican nominees after the recent Presidential election. 
While it is time for the FEC to be fully functional again, 
there is still more work to be done.
    Ms. Broussard, thank you for joining us today. You have 
successfully built a career dedicated to public service and 
have served as an attorney for the FEC in the Office of General 
Counsel since 2008. Given your experience, what would you 
recommend the Commission do to improve its effectiveness? Are 
there specific ways the FEC can increase election finance 
transparency within its current structure?
    Ms. Broussard. Thank you, Senator. To answer the question 
regarding specific ways to increase transparency, from a 
perspective of educating the public on the voluntary 
compliance, we currently have quite a few webinars and 
everything in place that gives our political stakeholders the 
opportunity for educational advancement. So, as a working FEC, 
I consider that a means for us to be able to advance the goals 
of disclosure to the public by promoting that voluntary 
compliance. I must have to say, if I could, I apologize, but if 
I could ask you to repeat the first half of your question 
again, I would be happy to answer it. I apologize.
    Senator Udall. Sure. Let me give you that one for the 
record, because I want to ask one more question here of the 
other nominees. Since the Presidential election, President 
Trump has made several claims of voter fraud. However, judges 
have repeatedly and overwhelmingly ruled against the Trump 
campaign's claims of fraud.
    GOP election officials in key states have also disagreed 
with these baseless claims. Just last week, the Cybersecurity 
and Infrastructure Security Agency issued a statement calling 
the 2020 Presidential election the most secure in American 
history. Mr. Dickerson, Mr. Cooksey, do you believe that there 
was widespread election fraud in 2020? Do you believe that it 
is wrong for individuals to suggest that there was widespread 
fraud without any proof?
    Mr. Cooksey. Thank you for the question, Senator. I do not 
have any personal knowledge of any widespread voter fraud that 
happened in the most recent election. I know that there is 
ongoing litigation by various candidates about the consequences 
or the outcomes of the election, but I haven't followed it 
myself and can't speak to it in detail.
    Senator Udall. Thank you.
    Mr. Dickerson. Senator, thank you for the question. The 
only thing I would add to Mr. Cooksey's response is to remind 
the committee emphatically and anyone who is watching this that 
the FEC has no role whatsoever in election administration or in 
judging electoral outcomes. I think it is important that the 
FEC remain within the four corners that Congress set for it.
    Senator Udall. Yes. But remember, as officials in official 
positions, when issues come up like this, you are going to be 
asked and it is important that people speak truth to power. 
Thank you so much, Mr. Chairman.
    Chairman Blunt. Thank you, Senator Udall. Senator Warner is 
ready for questions. We will go to him. If not, we will go to 
Senator Hyde-Smith.
    Senator Warner. Well, thank you, Mr. Chairman.
    Chairman Blunt. Senator Warner.
    Senator Warner. I am ready and I am here. I apologize about 
the sun coming in the wrong way. I want to actually pick up 
where Senator Udall left off. I got to tell you, Mr. Dickerson, 
I am pretty amazingly disappointed by your last answer. The FEC 
is parked along with the Election Assistance Commission, DHS, 
CISA, all parts of the group that ensure the integrity of our 
election system, and that goes from voting machines to 
transparency around election contributions.
    My agreement with Ranking Member Klobuchar on her great 
work, which I am proud to be a partner on, Honest Ads Act. I 
know, sitting from my position, the chairman who I had the 
opportunity to serve on the Intelligence Committee, if you 
would have asked us 30, 45 days out from this election with the 
potential of foreign interference, with the potential of people 
showing up with long guns at our polling stations, with the 
potential of many of our intelligence and law enforcement 
agencies concerned about prior to and immediate aftermath of 
violence at our polling stations--I think Americans responded 
remarkably, we had record turnout.
    I think our poll workers and officials did great jobs. I 
think our Secretaries of State--we have got former Secretaries 
of State on this on this panel with Senators uniformly in both 
parties----did a good job. I frankly am outraged that--CISA--
the entity responsible for election security, have indicated 
that this was the safest and most secure election in our 
history. I think it was remarkable to me that the President 
then fired the head of CISA last night.
    I want to give you, Mr. Dickerson, and all three members of 
the panel a chance to answer again. Do you not feel that the 
integrity of our election system is part of the responsibility 
of the FEC? You have--none of you want to weigh in at all on 
whether the elections that just took place were conducted in a 
safe and fair way or not? You are also to be election security 
expert, election experts.
    You must have an opinion on whether these elections were 
conducted appropriately or not. I will ask each one of the 
panel to respond briefly, because I have got one other quick 
question for the record.
    Mr. Dickerson. Senator, I appreciate the opportunity, in 
particular because I share your concerns and those on the 
Intelligence Committee for foreign influence and meddling in 
American self-Government. I think, my comment, which I do stand 
by, is to note that combating that risk is a Government-wide 
mission.
    As you pointed out, Senator, there are other larger, more 
expert, and better resourced agencies, some of which you 
mentioned, but I would add the Intelligence Community itself, 
the Department of Defense, the widespread abilities of the 
Department of Justice in this area that are simply a better 
fit, given the way----
    Senator Warner. Mr. Dickerson, I don't need a long--I mean, 
if you were to become confirmed, you do not think a role of the 
FEC Commissioner is to also try to support the integrity and 
confidence that Americans have in our election system?
    Mr. Dickerson. Absolutely, I do.
    Senator Warner. Is that confidence undermined when people 
recklessly, without proof, attack the election results or when, 
again, I will get into the firing of Mr. Krebs, which I think 
was extraordinarily inappropriate. But I am looking for FEC 
Commissioners who want to stand up for rule of law and stand up 
for speaking out when the integrity of our system is being 
attacked. I get the other--Mr. Chairman I am probably running 
out of time, but very briefly, could I get the other two 
witnesses to respond?
    Chairman Blunt. Certainly can.
    Ms. Broussard. I am happy to respond, Senator. I apologize 
for speaking over. I agree with you, Senator. I think the part 
of the responsibility of a Commissioner with the Federal 
Election Commission is to promote the integrity of the federal 
election process and protect the disclosure of information, 
which also protects the American public from being--the 
election process itself.
    I don't have any information, as a fellow nominee 
mentioned, that the only thing that there was any evidence of 
voter fraud and we also have public reports from national 
resources--CISA--being that we did not have any issues with 
this election and that it was quite a fair election and it has 
already been mentioned that we had an excellent amount of voter 
turnout, which I find extremely exciting.
    I think the opportunity for as a Commissioner to verbally 
promote the safety, the quality, the fairness of elections is a 
responsibility, although we are specifically tasked with 
enforcing FICA.
    Mr. Cooksey. Senator, to be brief, I agree with what my 
fellow nominees have said. The principal mission of the FEC is 
to promote transparency and accountability in the campaign 
finance system, but FEC Commissioners are public figures and 
have a broader responsibility to promote integrity and American 
confidence in our elections.
    Senator Warner. Thank you. Mr. Chairman, I know I don't 
often get to my Rules committee meetings and I know I may have 
gone beyond my time, so I won't ask my last question or I won't 
be invited back. Thank you and Senator Klobuchar for your 
leadership.
    [Laughter.].
    Chairman Blunt. Well, there will be a chance for questions 
for the record as well. Senator Warner, thanks for your time--.
    Senator Klobuchar. Mr. Chairman, I also want to thank 
Senator Warner for his work in the Honest Ads Act. I had 
omitted mentioning him so thank you.
    Chairman Blunt. Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Mr. Chairman, and thank you 
everyone for being here today. This is really important that we 
fill these positions. As you well know, these vacancies have 
been there for a while. I just have questions on how will your 
personal views or previous work affect decisions that you might 
make on questions that come before you as a FEC Commissioner, 
and how would you go about recusing yourself if you thought 
that there was a need for recusal?
    Mr. Dickerson. Thank you, Senator. I will take first shot 
at that, because I am the person up here who has represented 
clients most recently. In terms of the recusal process, and I 
expect my clients--my colleagues have also filed letters with 
the Commission outlining our responsibilities to recuse. I 
would add just personally that I consider those rules a floor 
and not a ceiling. I could imagine cases in which the 
perception of entanglement would lead me to recuse even if the 
rules didn't require it. But those would case by case questions 
that would arise as things develop.
    Senator Hyde-Smith. Thank you.
    Mr. Cooksey. Thank you, Senator. I agree with what Mr. 
Dickerson said. I think recusal is very important at the FEC as 
a Commission that is tasked with promoting confidence and 
integrity in the election process. I am not aware of any 
specific recusal needs, but I am committed to applying the 
recusal standard in an exacting and careful way. If ever there 
is a situation in which I think it might be implicated, I will 
commit to consulting with the career staff and my colleagues to 
make sure that it is followed to the letter.
    Ms. Broussard. Senator, the answer of the fellow nominees, 
I feel is directly on point. I, too, have been in discussions 
with our ethics counsel to fill out a form that would tell us 
if we have the grounds for recusal. I think the most important 
thing is that we remain impartial, integrity, and that if we 
had any questions, we take advantage of the ethics resources 
that we would have available to us. Thank you.
    Senator Hyde-Smith. Thank you.
    Chairman Blunt. Thank you, Senator Hyde-Smith. If Senator 
Leahy is available, we will go to him. If not, we are going to 
go to Senator Cortez Masto. Senator Leahy, you are recognized 
for 5 minutes.
    Senator Leahy. Thank you. Is this coming through?
    Chairman Blunt. Yes, it is. Yes, it is.
    Senator Leahy. Okay, good. Thank you. Appreciate having 
this opportunity. Each of you being nominated to the FEC at a 
critical moment. The FEC was created to promote confidence and 
participation in a democratic process. That is more difficult 
today when you have a President who almost every public 
statement, a tweet undermines public confidence in our 
election, seeks to suppress legally cast votes.
    But his temper tantrum tweets aside, all serious federal 
and state election officials, both Republicans and Democrats, 
have stated unequivocally that our election results are 
legitimate. Now, I will ask a question for each of you and you 
can answer yes or no. Is Joe Biden the President-elect of the 
United States? Yes or no?
    Ms. Broussard. Yes.
    Mr. Cooksey. Senator, I am aware that most media 
organizations have projected that former Vice President Biden 
has won the election.
    Senator Leahy. Do you accept that?
    Mr. Cooksey. I have no reason to doubt it.
    Senator Leahy. Thank you.
    Mr. Dickerson. I agree with Mr. Cooksey, subject to the 
outcome of litigation.
    Senator Leahy. Most of you have experienced litigation, as 
you know, virtually all of those cases have been dismissed, 
thrown out or withdrawn. I do realize Mr. Giuliani gave a Four 
Seasons discussion that strayed and brought somebody from out 
of the state, a sex offender, to give some baseless charges. 
But everything else has been pretty much thrown out.
    President Trump's own Department of Homeland Security has 
said this was the most secure in American history of elections 
and there is no history that anything that--there were deleted 
or lost votes, changed votes or were compromised. Do you agree 
with President Trump's Department of Homeland Security in that? 
Mr. Dickerson.
    Mr. Dickerson. Senator, in all frankness, I have very 
little expertise in that area. As you might imagine, my 
attention has been dedicated toward this hearing. I am really 
not in a position to give any useful commentary on activity at 
DHS in recent weeks.
    Senator Leahy. I would tell you, the FEC Commissioner 
Weintraub, recently observed that very few substantiated 
complaints of voter fraud or illegal votes. Would you agree 
with that? Do you have any reason to disagree with that?
    Mr. Dickerson. I have no reason to disagree. Commissioner 
Weintraub is an excellent attorney.
    Senator Leahy. Anybody else want to add to it?
    Mr. Cooksey. Senator, I agree with what Mr. Dickerson said. 
I have no personal knowledge or reason to doubt the statement 
of DHS.
    Ms. Broussard. Senator, I do not doubt the statement, DHS 
statement.
    Senator Leahy. Thank you very much. Mr. Dickerson, you 
criticized state efforts to limit companies with foreign ties 
from contributing money to state campaigns, as we do in my own 
State of Vermont. We want to make sure there is no foreign 
interference in our elections. I hope we all agree with that. I 
ask, is it ever appropriate for an American candidate for 
public office to influence or accept aid of a foreign state 
seeking to encourage our domestic election?
    Mr. Dickerson. I would think that would be an inappropriate 
decision.
    Senator Leahy. Thank you. I mention that only because of 
President Trump's statement during an ABC News interview in 
2019 when he said there is nothing wrong with taking 
information from a foreign government on a political opponent. 
I must admit that a number of my Republican colleagues were 
pretty shocked at that.
    I worry because some Republican Senators who have echoed 
the President's unsubstantiated claims about voter fraud. Some 
have claimed that Philadelphia's ballot counting process--
political--others with their claims are brought about when 
Republican Secretaries of State have said everything was fair. 
They face death threats because of that. They are saying 
because he is on a path to victory. If so, what is that path? 
Mr. Dickerson, do you see a path to victory for the President?
    Mr. Dickerson. I am not aware of one, but I have not looked 
at these cases in any detail.
    Senator Leahy. Anybody else see one?
    Mr. Cooksey. Senator, as Mr. Dickerson said, I am aware of 
ongoing litigation about the election, and I haven't followed 
it in great detail and I am not in a position to comment on the 
merits of it.
    Senator Leahy. You are aware that an awful lot of the 
litigation has been withdrawn or tossed out by the courts?
    Mr. Cooksey. I have seen news articles to that effect.
    Senator Leahy. I am a lawyer. I watch it very, very 
carefully. I have seen that I--the only reason I even raise 
these questions in a time of COVID the fact that it is taking 
so long to set up the process we have when we have a new 
President coming in. It is damaging to the country, is damaging 
to our security, is damaging to the health of our people. If we 
suddenly, as a new President is being inaugurated, we suddenly 
have an attack from one of our adversaries overseas, Lord help 
us all.
    The Presidents in the past, whether they have lost or won, 
they have always gone with that, have helped the new President 
coming in. I am simply stating this as the longest-serving 
Senator. I have never seen this happen with either Republicans 
or Democrats. We should be preparing, especially at a time of 
COVID and a time of extreme threats that the Chairman is aware 
of some of it from his position in other committees, as am I. 
We should be preparing for the transition.
    Mr. Chairman, I appreciate you setting this hearing. I know 
we have a vote that started on the floor.
    Chairman Blunt. We do. We do. Thank you, Senator Leahy.
    Senator Leahy. You know where my office so I will be at the 
vote very quickly.
    Chairman Blunt. Exactly. Your office looks great on the 
camera here today. Thank you, Senator Leahy. Senator Cortez 
Masto.
    Senator Cortez Masto. Thank you. Thank you, Chairman and 
Ranking Member. Thank you to all three of you and for your 
willingness to serve on the Commission. Let me followup with 
Senator Leahy's line of questioning. My question to all three 
of you is, do you think that the FEC has a role to play in 
limiting foreign interference in federal elections? If the 
answer is yes, what is that role? Mr. Cooksey, let me start 
with you.
    Mr. Cooksey. Thank you for that question, Senator. It 
raises a very important issue and I also share a concern about 
foreign interference in the elections. Yes, the FEC does have a 
role in prohibiting foreign interference. The prohibition on 
foreign national contributions is longstanding in law and has 
been upheld by the courts. It applies across a wide swath of 
political contributions. If I am confirmed, I am committed to 
enforcing that, just as it has been a priority for the 
Commission over recent years.
    Senator Cortez Masto. Thank you. Mr. Dickerson.
    Mr. Dickerson. I entirely agree. I think the foreign 
contribution and expenditure prohibition has been an area of 
bipartisan priority at the Commission. I would plan to join 
that tradition.
    Senator Cortez Masto.Thank you. Ms. Broussard.
    Ms. Broussard. Thank you. I cannot--I have no disagreement 
from my fellow nominees. The statute requires that foreign 
nationals are prohibited from making contributions or 
expenditures in our elections, are in connection with our state 
and local, state, and federal elections. I agree with that. I 
would look forward to, if confirmed, working with fellow 
Commissioners to enforce this.
    Senator Cortez Masto. Thank you. I know, looking at the 
Federal Election Campaign Act, there is really not a lot of 
qualifications for Commissioners that we have to look at other 
than that the Commissioner shall be chosen on the basis of 
their experience, integrity, impartiality, and good judgment. I 
think many of the questioning you are seeing here really goes 
to the impartiality piece of it.
    I appreciate the answers, particularly, Mr. Dickerson, that 
you gave to Senator Hyde-Smith on recusal and the fact that 
perception also has an impact and that should be considered 
when you are looking to recuse. But it is a Commissioner's 
decision to recuse or not to recuse at the end of the day.
    Let me ask you this, Mr. Dickerson, because over the past 
several years, you have advocated against the DISCLOSE Act and 
just about every effort by Congress and the FEC to strengthen 
transparency. If you are confirmed as Commissioner, how can I 
be assured that you are going to be impartial when it comes to 
the issues of transparency and will make the decision to recuse 
yourself if appropriate?
    Mr. Dickerson. I am very grateful for the question, 
Senator. I would analogize to what happens when an advocate or 
a practicing attorney is nominated for the judiciary, as we do 
often at the Commission, sit in a quasi-judicial capacity, 
which is why the perception matters so much. You know, I--the 
simple answer is that I will take an oath to the Constitution 
if confirmed to this position.
    As I often remind people, the First Amendment is only one 
part of the Constitution and I have been emphasizing that 
aspect of it in my practice for the last decade. But I also 
recognize that the role of an independent Commission, as a 
creature of statute, bound by Congress's judgment is a very 
different one from that of an advocate in the nonprofit space.
    My commitment to you, quite simply, Senator, is that I 
would take that oath seriously and recognize the very different 
role required by a nonpartisan law enforcement role as opposed 
to representing clients or speaking in public as an advocate.
    Senator Cortez Masto. Thank you. Do you think it is 
appropriate for an FEC Commissioner to be vocal on Twitter or 
media interviews supporting a particular candidate over 
another?
    Mr. Dickerson. I worry about it a great deal. I think it 
does make--I think there has been unanimity among my fellow 
nominees and I that we would like to be working toward 
unanimity and compromise on the Commission. I suspect that 
extracurricular advocacy makes that harder inside the building. 
I can't speak for anyone else who might be nominated or 
confirmed. I would plan to avoid that sort of outside advocacy.
    Senator Cortez Masto. Mr. Cooksey, same question to you.
    Mr. Cooksey. Thank you, Senator. I agree with what Mr. 
Dickerson said in that if I am lucky enough to be confirmed, my 
focus will be on the administration and enforcement of campaign 
finance law, not on outside political activity or advocacy.
    Senator Cortez Masto. Thank you. I notice my time is up. 
The rest of my questions, I will submit for the record. Thank 
you all again. Congratulations on your nominations.
    Chairman Blunt. Thank you, Senator Cortez Masto. We are 
voting. Let me have a couple of questions and a couple of 
comments. One is on all of the suggestions of your public view 
of elections generally. There are First Amendment rights. You 
do know more about elections and think more about elections 
than most people. But I don't think it is the job of the 
Federal Election Assistance Commission to try to enforce the 
campaign finance law. I don't think it is the job of the 
Department of Homeland Security to give opinions on how they 
think the campaign finance law should be enforced. My thought 
on this is, while there may be rulemaking authorities and other 
authorities that you have in the campaign finance law area, I 
think it is unreasonable to expect these agencies to constantly 
cross lines and decide, well, I know a lot about elections 
because I am on the Election Assistance Commission. I think I 
am going to start making determinations about how campaign 
finance law is being enforced. I think generally you all three 
wound up in that space where you have important 
responsibilities, the integrity of the election system is 
important, but your role is pretty clearly defined.
    Ms. Broussard made a comment I very much agreed with that 
if the Congress passes a law, you are going to enforce that 
law. There may be some rulemaking authority that is on the 
edges of whether Congress has passed a law or not, but 
understanding your job and how you do your job is critically 
important because nobody else is going to do your job. You 
spend all your time doing somebody else's job, nobody is doing 
your job, which is critical.
    On--what standard, if you have had a chance to think about 
this yet, and I know Ms. Broussard has, what standard must be 
met before the Commission offers an investigation? Let's just 
go in alphabetical order here, Broussard, Cooksey, Dickerson. 
What standard do you think needs to be met before the 
Commission opens an investigation?
    Ms. Broussard. Thank you, Senator. There has to be reason 
to believe that a violation has occurred or could occur, and 
the reason to believe is based upon sufficient evidence 
available. If, as was already mentioned by one of the nominees, 
it is not a quantified percentage, but that is the standard 
that is based in the statute and is also the regulations.
    Chairman Blunt. Mr. Cooksey.
    Mr. Cooksey. Yes, Senator, Ms. Broussard is correct. Reason 
to believe is the standard. I would describe reason to believe 
as the presence of credible evidence that a violation of the 
law has occurred--one of the campaign finance laws that the FEC 
administers.
    Mr. Dickerson. Senator, I find myself in the pleasant 
position and entirely agreeing with my fellow nominees.
    Chairman Blunt. Well, let me ask one more question. We will 
see if you agree with that one. The FEC is the subject of a 
great deal of litigation. The adversarial process really 
requires somebody engaged to defend the position the Commission 
has taken or nobody engages. What is your view of that? All 
three lawyers, all three capable attorneys. What do you think 
should be the FEC view of litigation challenging a newly 
arrived at position taken by the FEC? We can reverse 
alphabetical order. Let's go Dickerson, Cooksey, and Broussard.
    Mr. Dickerson. Thank you for the question. I have thought 
about this a great deal as a member of the private Bar who 
deals with the FEC. I don't think that the Commission does 
judges or courts any favors when important questions of 
constitutional or statutory law are decided on default 
judgments. I don't think that provides any clarity the law or 
any sufficient due process for the people held in front of the 
Commission. There may be cases where I would not vote to 
enforce or to appeal or to otherwise go to court, but sitting 
here right now and in my experience, I cannot think of any.
    Mr. Cooksey. Senator, my approach to this question is that 
Congress created the Commission as the administrator of the 
federal campaign finance law, not the courts and not private 
litigants. I have a strong belief that the rulings and the 
decisions of the FEC as a general matter should be defended in 
court.
    Chairman Blunt. Ms. Broussard.
    Ms. Broussard. Thank you. I believe that we have to look at 
each case, the particular facts, the law and with discussion 
with the Office of General Counsel to make that decision. But 
as Mr. Dickerson mentioned, I can agree with his perspective 
and said there may be some cases that it may be a value to 
consider with my peers on the Commission whether there should 
be a defense. But I am open to considering each matter before 
me and make the decision at that time. Thank you.
    Chairman Blunt. Well, I thank all of you for joining us 
today. The record will be open until noon on Friday, November 
the 20th.
    I know Ms. Broussard, in the point when we had a slight 
disengagement, Senator Cruz had a question that he had hoped 
you all three would answer, that you didn't get a chance to 
answer. There will probably be more questions to be filed. I am 
hopeful that we can move all three of these nominations this 
year and restore the Commission to the six member status.
    I would point out for the observations that I would like to 
do this two at a time, one Democrat, one Republican. There have 
been two vacancies on the court for over, or two terms on the 
Commission for a decade or so now, one by a Democrat, one by an 
Independent that generally votes with that side of the 
Commission, that no nominee has ever been presented to this 
committee.
    I would love to have nominees for that and we would quickly 
move on those nominees, even if they both come at the same 
time, as long as there is otherwise a full Commission. The 
committee is adjourned.
    [Whereupon, at 11:22 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------    
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                              



                                  <all>
</pre></body></html>
